TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Report on Audit of Cost Impact Statement


                                         December 2005

                             Reference Number: 2006-1C-011




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          December 20, 2005


 MEMORANDUM FOR DAVID A. GRANT
                DIRECTOR OF PROCUREMENT
                INTERNAL REVENUE SERVICE




 FROM:                       Daniel R. Devlin
                             Assistant Inspector General for Audit (Headquarters Operations
                             and Exempt Organizations Programs)

 SUBJECT:                    Report on Audit of Cost Impact Statement (Audit # 20061C0202)

 The Defense Contract Audit Agency (DCAA) examined the contractor’s August 1, 2005, cost
 impact proposal reflecting the contractor’s cost accounting practice change. The Corporate
 Administrative Contracting Officer has determined that the accounting practice change is a
 desirable change.
 The DCAA opined that the contractor has submitted acceptable data and that the desirable
 change will result in no increased or decreased costs to the Federal Government on Cost
 Accounting Standard covered contracts. According to the DCAA, this change allows General
 and Administrative expenses to be burdened in a more equitable manner and promotes cost
 charging consistency across the corporation.
 The information in this report should not be used for purposes other than those intended without
 prior consultation with the Treasury Inspector General for Tax Administration regarding their
 applicability.
 If you have any questions, please contact me at (202) 622-8500 or John R. Wright, Director, at
 (202) 927-7077.


 Attachment
                                   NOTICE:
The Office of Inspector General for Tax Administration has no objection to the release of
this report, at the discretion of the Contracting Officer, to duly authorized
representatives of the contractor.
The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to the
public.
This report may not be released without the approval of this office, except to an agency
requesting the report for use in negotiating or administering a contract with the
contractor.




i
